Washington, D.C. 20530

May 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Samuel Alex Gann v. United States of America,
S.Ct. No. 20-7701
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 5, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on May 27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7701
GANN, SAMUEL ALEX
USA

JENNIFER NILES COFFIN
FEDERAL DEFENDER SERVICES OF EASTERN
TENNESSEE
800 S. GAY STREET
STE. 2400
KNOXVILLE, TN 37929
865-637-7979
JENNIFER_COFFIN@FD.ORG

